<html>
<title> - HOMELAND SECURITY: SHOULD CONSULAR AFFAIRS BE TRANSFERRED TO THE NEW DEPARTMENT OF HOMELAND SECURITY?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
 HOMELAND SECURITY: SHOULD CONSULAR AFFAIRS BE TRANSFERRED TO THE NEW 
                    DEPARTMENT OF HOMELAND SECURITY?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CIVIL SERVICE,
                     CENSUS AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2002

                               __________

                           Serial No. 107-205

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

86-826              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on the Civil Service, Census and Agency Organization

                     DAVE WELDON, Florida, Chairman
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
CONSTANCE A. MORELLA, Maryland       MAJOR R. OWENS, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
C.L. ``BUTCH'' OTTER, Idaho          ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Garry Ewing, Staff Director
                          Scott Sadler, Clerk
                     Michelle Ash, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2002....................................     1
Statement of:
    Green, Grant S., Jr., Under Secretary for Management, U.S. 
      Department of State, accompanied by George Lannon, 
      Principal Deputy Assistant Secretary for Consular Affairs, 
      U.S. Department of State...................................     8
    Light, Paul, vice president and director of governmental 
      studies, the Brookings Institution; E. Wayne Merry, senior 
      associate, American Foreign Policy Council; Nikolai Wenzel, 
      director of academic programs, Atlas Economic Research 
      Foundation; Joel Mowbray, attorney, contributing editor, 
      National Review Online.....................................    25
Letters, statements, etc., submitted for the record by:
    Green, Grant S., Jr., Under Secretary for Management, U.S. 
      Department of State, prepared statement of.................    11
    Light, Paul, vice president and director of governmental 
      studies, the Brookings Institution, prepared statement of..    28
    Merry, E. Wayne, senior associate, American Foreign Policy 
      Council, prepared statement of.............................    35
    Mowbray, Joel, attorney, contributing editor, National Review 
      Online, prepared statement of..............................    51
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Wenzel, Nikolai, director of academic programs, Atlas 
      Economic Research Foundation, prepared statement of........    41


 HOMELAND SECURITY: SHOULD CONSULAR AFFAIRS BE TRANSFERRED TO THE NEW 
                    DEPARTMENT OF HOMELAND SECURITY?

                              ----------                              


                        WEDNESDAY, JUNE 26, 2002

                  House of Representatives,
  Subcommittee on Civil Service, Census and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:53 p.m., in 
room 2203, Rayburn House Office Building, Hon. Dave Weldon 
(chairman of the subcommittee) presiding.
    Present: Representatives Weldon, Burton, Morella, Souder, 
Davis and Norton.
    Staff present: Scott Sadler, clerk; Chip Walker, deputy 
staff director; Garry Ewing, staff director; Jim Lester, 
counsel; Andrew Wimer; Pamela Groover; Stuart Burns; Michelle 
Ash, minority counsel; Tania Shand, minority professional staff 
member; and Earley Green, minority assistant clerk.
    Mr. Weldon. Good afternoon. The hearing will now come to 
order. I apologize to our witnesses. The Speaker of the House 
called us all to a special meeting.
    Certainly I am grateful to have all of our witnesses here 
today. Today we will further examine one of the most vital 
components of the President's Homeland Security proposals. 
Homeland Security starts abroad and nothing is more important 
than who gets approved for a visa. The issuance of visa can no 
longer be thought of as a mere diplomatic function. It is now a 
national security issue and our embassies and consulates must 
put our national security first.
    Common sense tells us that the best way to protect 
Americans from foreign terrorists is to prevent terrorists from 
entering the United States in the first place. Just as we work 
hard to prevent biological, chemical or other weapons from ever 
making it to our shores, so we must keep terrorists, deadly 
weapons in and of themselves, from reaching our homeland. A 
security-focused visa issuance program is essential to achieve 
that objective. We are all too aware of the fact that 15 of the 
19 September 11th terrorists had obtained ``appropriate'' 
visas. This is unacceptable. The security of our Nation begins 
abroad.
    Visa issuance should not be about speed and service with a 
smile. Visa processing should not be an entry-level job, as it 
is currently in the State Department. The principal focus of 
visa issuance should be national security, not diplomatic 
concerns. This process should be about close and careful 
examination of each and every visa applicant. Our security 
depends on it. The safety of the American people depends on it.
    While the President recognizes the importance of visa 
issuance and the obvious problems, the current proposed 
legislation does not go far enough. The entire Bureau of 
Consular Affairs should be part of the proposed Homeland 
Security Department. The State Department views the issuance of 
visas as a diplomacy tool. The day is past when it should be 
viewed this way. It is now clearly a national homeland security 
function. The fragmented arrangement where the Secretary of 
Homeland Security establishes policies regarding visas, but 
actual operational control remains under the State Department 
is not acceptable. Yet, the administration's proposal takes 
this approach.
    Many experts have identified this fragmented approach as a 
major weakness in the administration's proposal, and I agree. 
After all, the purpose of the Homeland Security Department is 
to unify the fragments of our homeland defense into one 
cohesive department.
    Last week the President spoke to this very issue. He said, 
``There are over 100 different agencies that have something to 
do with the homeland and they are scattered everywhere, which 
makes it awfully hard to align authority and responsibility.'' 
I couldn't agree with the President more.
    The President went on to give examples of the Coast Guard 
and the Customs Service as agencies whose primary focus should 
now be homeland defense and how it is no longer appropriate to 
keep them in the Departments of Transportation and Treasury, 
respectively. I certainly agree with that philosophy. It makes 
sense to me.
    Equally, the Bureau of Consular Affairs should and must 
have our homeland defense and the prevention of issuing visas 
to terrorists as its No. 1 priority. Clearly, this bureau must 
become a full part of the Department of Homeland Security.
    Recent new reports have brought to light a program in Saudi 
Arabia called Visa Express. It allows private Saudi travel 
agents to process visa paper work on behalf of Saudi and non-
Saudi residents. Three of the September 11th terrorists 
obtained their visas this way--never being interviewed by 
anyone in the Consular office. When the program began, it was 
advertised as ``helping qualified applicants obtain U.S. visas 
quickly and easily. Applicants will no longer have to take time 
off from work, no longer have to wait in long lines under the 
hot sun and in crowded waiting rooms.''
    It seems to me that we have our priorities out of order 
here. This isn't a customer service issue; it is a national 
security issue. Visa issuance must be a Homeland Security 
system from top to bottom. This is the only way the Secretary 
will be able to completely and thoroughly protect our borders, 
by preventing terrorists from ever making it to the homeland.
    I believe we must also change the culture involved in 
issuing visas. James Q. Wilson, Professor Emeritus at UCLA, has 
written extensively about effective government. In a recent 
book entitled ``Bureaucracy: What Government Agencies Do and 
Why They Do It,'' he wrote about the organizational culture in 
the State Department as one that fosters diplomacy over 
security.
    I will quote from his book: ``Every organization has a 
culture, a persistent, patterned way of thinking about the 
central tasks of human relationships within an organization. 
Culture is to an organization what personality is to an 
individual. Like human culture, generally, it is passed from 
one generation to the next. It changes slowly, if at all. When 
criticized, some organizations hunker down and others conduct a 
searching self-examination.''
    My sense is that the State Department is in a hunker-down 
mode and not making a serious effort at self-examination, but 
rather protecting sacred turf.
    We have heard concerns about the career path of Consular 
Affairs officials and how the path doesn't include working for 
the Department of Homeland Security. We all have careers and I 
appreciate those concerns. But it seems to me that we should be 
placing the security of the American people above those 
concerns.
    It is a pleasure now for me to recognize the distinguished 
ranking member of the committee, Mr. Davis.
    [The prepared statement of Hon. Dave Weldon follows:]

    [GRAPHIC] [TIFF OMITTED] T6826.001
    
    [GRAPHIC] [TIFF OMITTED] T6826.002
    
    Mr. Davis. Thank you very much, Mr. Chairman. I, too, want 
to thank our witnesses and look forward to their testimony.
    Chairman Weldon, Section 403 of the Homeland Security Act 
of 2002 has raised a number of questions and concerns about the 
processing of visas at the Bureau of Consular Affairs. The 
chairman raised some of these concerns at last week's full 
committee hearing and has proposed transferring the Bureau of 
Consular Affairs in its entirety from the State Department to 
the Department of Homeland Security.
    Those who share the chairman's concerns question the 
practicality of transferring the authority to established 
policy regarding issuing visas to the new Secretary of Homeland 
Security, but leaving operational control of the process to the 
State Department.
    Questions that have been raised include: How would the 
Secretary of Homeland Security work through the Secretary of 
State to issue regulations pertaining to the visa process. How 
would State Department employees be held accountable for 
carrying out procedures established by an authority outside 
their chain of command?
    However, there are those who argue against transferring the 
Bureau of Consular Affairs to the new department because the 
visa function includes an array of policy issues that are 
unrelated to homeland security. These include supporting 
American embassies and consulates around the world in such 
matters as deaths, arrests, citizenship and nationality, 
international parental child abduction and international 
adoption.
    I think all of these are valid concerns and I certainly 
look forward to hearing the witnesses as they address not only 
these particular concerns, but as they help us to address one 
of the most important issues facing our country today, and that 
is indeed that of Homeland Security.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    Mr. Weldon. The gentleman yields back. The chair now 
recognizes the chairman of the full committee, the 
distinguished gentleman from Indian, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. I was just reading 
some of the questions. I probably won't be here for the whole 
hearing, but just reading the questions raises a lot of 
concerns as far as I'm concerned. There was an e-mail sent from 
Thomas Furey to Mary Ryan. When we read that e-mail it is very 
disconcerting because it appears as though the most important 
thing to the embassy over there was that this was going to help 
four groups reduce the long lines at the embassy and there was 
more concern about that than there was about security.
    Of course, this memo was June 26, well before the September 
11th tragedy, the attack on the World Trade Center and the 
Pentagon. But nevertheless, it says, ``The guards are going to 
be happy. The Saudi Government was going to be happy. The RSO 
was going to be happy. And the Saudi visa applicants were going 
to be happy. And that they were only going to have to have 15 
percent of the number people that would normally come to the 
embassy for visas because of this express procedure going 
through these various travel agencies.''
    The other thing that concerns me--and I don't understand 
why there wasn't a little more far-sightedness, because we had 
an attack on the World Trade Center before that, and I think 
everybody in the country, their antennae had gone up because we 
were concerned about radicals coming into the country.
    I don't understand why this procedure was started in the 
first place.
    The second thing that concerns me is that there is about 
200 consular offices overseas that deal with visas. It seems to 
me that it wouldn't be that great of a problem to transfer 
those people to Homeland Security jurisdiction so that would be 
a viable function, Homeland Security, instead of keeping it 
where it is today.
    So, those are a couple of the concerns that I have. I also 
believe that you are probably going to have to increase the 
amount of training that the people have as far as dealing with 
visas, especially in some of these countries where we know the 
terrorists originate.
    They say there is minimal training, less than 1 day. They 
say they are sent into the field, the anti-fraud techniques 
they learn are minimal training. The average immigrant visa 
lasts 2 to 3 minutes. There just have to be a lot of changes. 
It seems to me that the interview should take place and for 
anybody who is questionable. There should be some kind of 
computer analysis that is sent to Homeland Security so that 
they can review this before that applicant does get a visa to 
come to this country, especially in view of the fact that in 
the case of Saudi Arabia we had some of the terrorists get 
visas through this quick system and came in and did irreparable 
damage to part of our country.
    So, I have a lot of concerns about this. I think in the 
markup, Mr. Chairman, your concerns should be fully reviewed 
and I believe the committee will be of a mind to, unless we get 
some other information that changes our mind, the committee 
will be of a mind to mark the bill up changing the visa 
procedure to Homeland Security from the State Department.
    With that, thank you, Mr. Chairman.
    Mr. Weldon. I thank the gentleman. Are there any other 
Members who would like an opening statement?
    Ms. Morella, you are recognized for an opening statement.
    Mrs. Morella. Thank you, Mr. Chairman. I just want to begin 
by thanking you, Chairman Weldon, and Ranking Member Davis for 
holding this hearing.
    There is no more important objective for this country than 
making sure our citizens are safe. As our committee has been 
tasked with significant responsibilities to ensure that this 
actually happens, I welcome the discussion today on the role of 
the Bureau of Consular Affairs.
    This subcommittee is rightly looking into whether the 
Bureau should remain in the State Department or be moved into 
the new Department of Homeland Security. There is a real 
conflict of interest that confronts the State Department 
officials in that they are tasked with both the administration 
of the law and very different diplomatic responsibilities. They 
don't often go hand in hand, as Mr. Wenzel noted in his 
testimony which we will hear later.
    It is likely that the screening process required by the law 
is subverted to the exigency of public relation. I want to 
point out, I know that Mr. Mowbray is scheduled to testify, but 
in reading this article that he had written, I learned about 
something that had been alluded to called Visa Express, a short 
two-page form and a photo will do it for people in Saudi Arabia 
and that there was a variation of it called Visa Waiver. 
Twenty-eight countries, almost all in Western Europe, 
participate in the Visa Waiver, which permits travel to America 
without a visa.
    I certainly hope to have these questions and others 
discussed. Thank you.
    I yield back.
    Mr. Weldon. If there are no other opening statements, we 
will go ahead and proceed with the first panel. Our first 
witness will be Mr. Grant Green, Jr., who is Under Secretary 
for Management for the U.S. Department of State.
    Under Secretary Green was sworn into his current position 
on March 30, 2001. He has a long and distinguished career 
working in service for our country starting with his 22-year 
career serving with the U.S. Army. Mr. Green served in the 
White House as Special Assistant to President Reagan for 
National Security Affairs and Executive Secretary of the 
National Security Council. Following that, Mr. Green served as 
Assistant Secretary of Defense.
    Accompanying Mr. Green is Mr. George Lannon who is the 
Principal Deputy Assistant Secretary for Consular Affairs for 
the U.S. Department of State. Mr. Lannon also served as Deputy 
Assistant Secretary for Passport Services and Deputy Assistant 
Secretary for Visa Services at the State Department.
    Thank you all for joining us and being here today to share 
your thoughts on these issues.
    Without objection, your written statements will be placed 
in the record.
    You will each be recognized for 5 minutes to summarize your 
testimony. There are lights in front of you. The green light 
indicates that you have 4 minutes. The light then turns yellow, 
signifying that you have 1 minute left to summarize your 
statement and the red light indicates your time has expired.
    It is the practice of the Government Reform Committee to 
swear the witnesses at all of our hearings. I would ask that 
you now rise and raise your right hand while I administer the 
oath.
    [Witnesses sworn.]
    Mr. Weldon. Would the court reporter please record that the 
witnesses have answered in the affirmative?
    Mr. Green, you are recognized for 5 minutes.

     STATEMENT OF GRANT S. GREEN, JR., UNDER SECRETARY FOR 
  MANAGEMENT, U.S. DEPARTMENT OF STATE, ACCOMPANIED BY GEORGE 
   LANNON, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR CONSULAR 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Green. Thank you, Mr. Chairman, Chairman Burton and 
members of the subcommittee. I am pleased to have this 
opportunity to present my comments on what is potentially the 
most far-reaching, comprehensive Government reorganization 
proposal since the Second World War.
    The events of September 11th have brought a vigorous, 
determined and effective response from the people and the 
Government of the United States, but also the knowledge that we 
must do better.
    The Department of State has and will continue to play a 
vital role in this effort and we fully support the President's 
proposal. Although INS has always had the final decision on who 
actually enters the United States, the authority to make the 
crucial visa decisions has long been vested in the consular 
offices of the Foreign Service.
    The proposal you have before you would transfer to the new 
Homeland Security Secretary both the current authority of the 
Attorney General and the authority of the Secretary of State to 
establish regulations for the granting and refusal of visas by 
consulates offices and to administer and enforce the laws 
regarding the issuance and denial of visas by consular offices.
    The new Secretary of Homeland Security will exercise this 
authority over Consular Offices through the Secretary of State. 
Because visa decisions abroad are also important to carry out 
our foreign policy, the President's proposal ensures that the 
Secretary will retain authority to deny visas on foreign policy 
grounds.
    While it is intuitively obvious to all of us that visa 
policy is integral to the protection of the United States from 
terrorists, I think it is important to say very explicitly why 
this is so. The 19 terrorists who attacked the United States 
September 11th traveled to the United States on legally issued 
visas and proceeded on their deadly mission undeterred by U.S. 
authorities.
    Why did we not recognize who they were and what they 
planned to do? Why did not we refuse visas or subsequent entry 
when they arrived? There was no way without prior 
identification of these people as terrorists through either law 
enforcement or intelligence channels and the conveyance of that 
knowledge to our consular offices abroad, that we could have 
known their intention.
    I cannot emphasize strongly enough that identification by 
the intelligence and law enforcement community and the sharing 
of that information with consular offices abroad is a critical 
component for fighting terrorism and visa policies. We believe 
we have come a long way in a short time for the conference of 
data sharing we must have to prevail in this area, the war 
against terrorism.
    Executive orders and the U.S. Patriot Act require and 
reinforce such sharing and our files on potential terrorists 
are far better now than they have been in the past. We believe 
a new Department of Homeland Security empowered to provide to 
consular offices abroad all the information that the U.S. 
Government knows from whatever sources will help us toward this 
goal.
    The Secretary of State fully supports the creation of this 
department with this authority to ensure full data sharing. It 
will empower officers of the Foreign Service to protect our 
country using the tools and systems we have long worked to 
develop.
    As I said, knowing who a potential terrorist is will do 
little good if we don't have a reliable system to pass that 
knowledge to consular offices wherever they might be, 
approached by a terrorist for a visa. Here our progress has 
been exponential since the first attempt on the World Trade 
Center in 1993.
    Our Consular Lookout and Support System provides consular 
offices everywhere in the world with access to the best 
information on people we do not want in the United States. It 
is the most advanced foreign language algorithms to ensure that 
transliteration and common names are not overlooked, and it 
prevents any visa from being printed until our name-check 
system, including interagency consultations, have been cleared.
    The specialized skill in training of Foreign Service 
officers work hand in glove with the new Department of Homeland 
Security to deny visas to potential terrorists. In creating the 
new department it is important to recognize that visa policy 
plays a vital role in important foreign policy concerns of the 
United States which in many ways also support Homeland 
Security.
    Our visa policies advance our economic interest, protect 
the public health, promote human rights and democratic values. 
Someone seeking a U.S. visa will find that our laws promote 
religious freedom, oppose forced abortion and sterilization, 
enforce the reciprocal treatment of diplomats, insist upon the 
fair treatment of American property, and punish the enemies of 
democracy throughout the world.
    Finally, the war against terrorism is a world war that 
cannot succeed without cooperation by our friends and allies 
who are also threatened by the same terrorists. We have seen 
the success that a determined United States can have in forging 
a coalition and in obtaining diplomatic, military, law 
enforcement, and intelligence cooperation from abroad.
    We must be mindful of the need to strengthen these 
partnerships and to win not only the overt war against 
terrorists, but the equally important hidden war against 
freedom and democracy that rages between fanatics who would 
employ terror to crush these ideals and the large majority of 
humanity that seeks the same freedoms as their own.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T6826.003
    
    [GRAPHIC] [TIFF OMITTED] T6826.004
    
    [GRAPHIC] [TIFF OMITTED] T6826.005
    
    [GRAPHIC] [TIFF OMITTED] T6826.006
    
    Mr. Weldon. Thank you, Mr. Green. I understand that Mr. 
Lannon does not have an opening statement but he is here to 
answer questions.
    Mr. Souder is under a time constraint and he has asked to 
go first on questioning. So, I'm happy to yield to the 
gentleman from Indiana for 5 minutes for questions.
    Mr. Souder. Thank you, Mr. Chairman. I have to chair 
another meeting.
    One of the things that I am concerned about, I am concerned 
that this isn't in the Department. I have supported that and 
made public statements to that effect.
    You made two statements in your opening statement that I 
just wanted to clarify because it is something we would have to 
take into consideration. You refer to the transliteration in 
common names to make sure they aren't overlooked and the 
specialized skill and training of Foreign Service personnel.
    Certainly having visited embassies around the world, I 
realize that, that it is arguably among the most highly trained 
professionals we have in the country and nothing that we are 
saying in the process of trying to address the problems here in 
Homeland Security should be taken as any comment by any Member 
of Congress on the professionalism of the State Department.
    I hope employees in the State Department understand that, 
that we are trying to figure out where the priority comes. Are 
you saying that the person who does the clearance, that all of 
them are trained and can speak the native language currently?
    Mr. Green. They are all trained.
    Mr. Souder. Even though they do embassy rotation, that if 
somebody who got the front desk in an African nation has a 
unique ability to understand that language and communicate?
    Mr. Green. Yes, sir.
    Mr. Souder. So that we would have to make sure that however 
we address that, we don't lose that skill.
    Now, are you saying that in the--because in the embassies I 
have been in, this is a very rapid process. There is often a 
line. I stand there at the desk. They are clearing the people 
pretty rapidly and making a very fast judgment.
    Do you believe, when you say ``transliteration and 
algorithm, the experience of the Foreign Service,'' how 
critical is that at the assembly line rate that we are moving 
this through as opposed to any intelligence that you could have 
in front of you? Clearly that is the No. 1 thing.
    But the No. 2 thing is what does this ability to understand 
the language and the references in your statement have to do 
with what actually they are doing on a day-to-day basis in the 
clearance when it is moving pretty fast?
    Mr. Green. The transliteration and the algorithms that we 
are talking about, it is the Lookout System that is very 
sophisticated, that basically, for example, if you put Mohammed 
in with a ``u'' it would pick up a Mohammed with the ``o,'' 
double ``m'' or anything like that. So, you would not have to 
necessarily make an exact linkup with the name. If the passport 
was spelled Al Gizer, and it had ``al'' and then ``Gizer'' or 
AlGizer running together, it is supposed to pick up those kind 
of things. So, it does not depend on an exact match of the 
name.
    That way the consular office might get a series of names 
that might match the name of the person in front of them. They 
are supposed to make a judgment based on that on the other 
information. It also helps them direct a line of questioning, 
if they have indications that this might be a person who has 
come to our purview before.
    Mr. Souder. Do you sense that has happened?
    Mr. Green. I know it happened.
    Mr. Souder. In that case the ability to understand the 
language and to read it, write it and understand the nuances 
becomes important.
    Mr. Green. It becomes important, yeah, because then you 
talk to the applicant about it and you are better able to 
understand what they are saying. They are telling you what they 
are telling you, as opposed to someone else is telling you.
    Mr. Souder. I yield back, Mr. Chairman. I thank you for 
your tolerance. That is something we have to look at how we are 
going to address it in fixing the question of security entrance 
questions because it is similar at the border. Our language 
skills and other services are minimal in how we would figure 
out how to make sure that we can understand what risks there 
are if the person hasn't been flagged.
    What other warnings might there be? That is something we 
have to factor in to any debate we have and any changes we 
make.
    Thank you, Mr. Chairman.
    Mr. Weldon. The gentleman yields back.
    It is the intent of the chair to continue the hearing for 
another 10 minutes or so before we adjourn for the vote. The 
Chair now recognizes the gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Green, did I understand you to discuss that the goals 
of the Visa Express Program are simply incompatible with 
Homeland Security?
    Mr. Green. No, sir, I certainly didn't mean to imply that 
if that is the way you took the statement.
    Mr. Davis. Would you refresh my understanding of the 
testimony?
    Mr. Green. As you probably know, sir, Visa Express is a 
processing tool. In the case of Saudi Arabia, which has 
received the most notoriety, we have a small number of 
carefully vetted travel agents that do nothing more than hand 
out forms and collect the completed forms for transmittal to an 
embassy. It is like you or I going to the Post Office to get 
our tax forms.
    They play no role in the completion of those forms. That 
goes back to the embassy to the Consular Officers who in turn 
go through the CLASS system we just talked about and vet the 
person and make their ultimate decision.
    Mr. Davis. So, they are really just collecting.
    Mr. Green. They are passing out a blank form and collecting 
completed forms and providing them to the embassy. Now, I will 
say, since September 11th we have required of them, as we do 
all of our Consular Officers, a supplemental visa questionnaire 
on adult male, non-immigrant visas worldwide to elicit more and 
better information. We also conduct deeper background checks.
    We are also reviewing the whole process of offsite 
availability of forms to see what impact that might have on our 
work force and the workload. What was done with Visa Express 
was merely to provide an easier way to distribute these forms 
so that we didn't have thousands and thousands of people lining 
up at the embassies, and the consulates that had to be dealt 
with. It enabled us to focus our limited resources on really 
evaluating the greatest security risks.
    Mr. Davis. If one were to try and determine how the 
individuals who are suspected of being terrorists or having 
been terrorists were able to slip through the process, if there 
was to be something changed, what might that be which would 
make it more difficult on those individuals to come through 
undetected?
    Mr. Green. The sharing of information and intelligence by 
law enforcement.
    Mr. Davis. So, in terms of just the issue of visas itself, 
I mean that is not the problem, but information sharing so that 
everybody has got as much information?
    Mr. Green. Absolutely. That is something that we have 
attempted to improve. The new Department of Homeland Security 
will have that same mission. They have a task force ongoing now 
that is looking at the integration of all of the various, what 
I will call ``stovepipe'' systems that are eating us, the 
intelligence community, to identify terrorists and other 
undesirables that we don't want to admit to the country for 
various reasons.
    That whole system has to be brought together and the Office 
of Homeland Security has a task force that is looking at that.
    But I can't stress enough, I would almost say, I don't care 
who you have sitting across looking through the window at the 
applicant, unless there is information in the data base, it is 
very difficult, if not impossible, just by asking questions to 
determine what their ultimate motive may be.
    Mr. Davis. If we were to transfer all of the visa-related 
functions to Homeland Security, what would be left for the 
consulates?
    Mr. Green. If it were just the visa function?
    Mr. Davis. Yes.
    Mr. Green. Well, the two other main areas, of course, are 
the passport functions and American citizen services. You 
mentioned that in your opening statement. It is a big job. It 
is a big function. It is a very important function. You have 
6,000 Americans that die overseas every year. Half of them are 
requested by their families to bring them back here. We have 
44,000 births every year that have to be registered. We have 
2,000 to 3,000 people in jail overseas that we have to monitor, 
visit and try to help. We have 20,000 adoptions every year. So, 
there are a number of things not related directly to security 
that are missions of this particular bureau.
    Mr. Davis. Thank you.
    Mr. Weldon. I thank the gentleman.
    The chair now recognizes the chairman of the full 
committee, Mr. Burton for 5 minutes.
    Mr. Burton. We have about 9 minutes on the clock, so I'll 
try to go through this pretty quickly.
    According to this article I read in the New York Post, I 
understand that Mr. Mowbray is going to be testifying on the 
next panel. It says, ``Just a decade ago almost everyone was 
interviewed at least once before obtaining a visa to enter the 
United States.
    ``But Consular Affairs Chief, Mary Ryan has systematically 
worked to scrap the interview requirement in consulates 
worldwide, meaning that more and more people arrive in the 
United States without ever coming in contact with a U.S. 
citizen until they step off the airplane.''
    It does go on to say that the Consular Affairs office 
changed the name, ``Visa Express'' and it changed the way the 
Web site of the U.S. Embassy in Riyadh described the program, 
and that was it. Nothing else has changed.
    I guess Mr. Mowbray contacted or someone contacted the 
embassy over there regarding a visa and he was told, ``Don't 
worry. Only the Web site changed. It is still easy to get a 
visa.''
    He goes on to say that only 3 percent of the Saudis were 
refused last year when in fact 23 percent of all applicants 
were refused and that if there is a change to take place, the 
State Department's Inspector General IG audits are by former or 
current CA employees.
    So, it looks like nothing has really changed except that 
they changed the name, possibly, and the review process goes 
on. Now, you know, we have had hearings with Health and Human 
Services and FDA. They have an advisory committee that 
recommends whether or not a new vaccine is to be used.
    I asked them, I said, well, who makes the final decision on 
these vaccines? They said, ``Well, it is the FDA officials 
themselves.''
    I said, ``Well how many times has the Advisory Committee's 
recommendation been refused?''
    It has never been refused, ever. The thing that concerns me 
is you have these travel agents preparing these papers and 
sending them over the Consulates officials who only interview 
people from 2 to 3 minutes at a time.
    I would like to know from you, and you don't have to give 
it to me today, but I would like to know how many visas are 
refused that are recommended or sent over by the Visa Express 
people, because I have a sneaking suspicion that almost every 
one of them are approved because they are not really reviewed 
in detail by your consular official over there who works on the 
visas.
    So, I would like to know how many of those people are 
refused who were recommended in the last year, since last June 
when you started this process. How many of those people were 
refused that got documents sent over to the consular official 
handling that instead of how many were approved.
    I'll bet you that almost all of them were approved.
    Mr. Green. Well, sir, we will certainly get you those 
numbers, but let me again say that the travel agents or any 
others, we have American Chambers of Commerce overseas that 
perform these same kind of oversight function. All they do is 
provide the form and receive the completed form and transmit 
that to the embassy where it goes through the same review.
    Mr. Burton. Wait just a minute. It says in this article 
that only 15 percent of the people then come in for actual 
interviews. It says that 85 percent of them, once this process 
takes place, don't have to come to the embassy.
    Mr. Green. But the form is still reviewed.
    Mr. Burton. The form is there, but you know, looking the 
person in the eye and talking to them as you used to, you used 
to do that with everyone of them up until about a year ago, and 
now that has changed.
    It seems to me after September 11th you would have had an 
immediate review of this and there would have been a change in 
the process, but you are doing the same thing and I don't 
understand that. So people are still coming in to this country, 
85 percent of them, without even visiting the embassy and 
sitting down with the Consular officer. Is that right?
    Mr. Green. No. We interview at least 50 percent worldwide.
    Mr. Burton. How about in Saudi Arabia? Because it says here 
only 15 percent of them were actually interviewed. Eighty-five 
percent, they sent a formal remedy and it is still easy to get 
a visa.
    Mr. Green. We have approximately 45 percent, now this is 
everybody who applies for a visa in Saudi Arabia is 
interviewed. There is a process they call Visas Condor, where 
people have to fill out this form. The people who fit into that 
all have to be interviewed.
    Mr. Burton. What is the difference between Visas Condor and 
everybody?
    Mr. Lannon. This is a program that deals mostly with a 
certain demographic males between the ages, I think, of 16 and 
45.
    Mr. Burton. What about females? They wouldn't fit into the 
demographics?
    Mr. Lannon. They don't fit into that particular 
demographic.
    Mr. Burton. So, are they interviewed?
    Mr. Lannon. Some are.
    Mr. Burton. But all of them aren't? I want you to know in 
Israel they are using women and children with bombs tied around 
them to blow up buses and kill innocent civilians. So, for you 
to say that only people in a certain demographic area are to be 
scrutinized by a peripheral interview, I don't think is 
sufficient. That is one of the things that I think we are going 
to be discussing in the full committee.
    In any event, I know we have to go.
    Mr. Weldon. We are down to less than 5 minutes, Mr. 
Chairman.
    Mr. Burton. I'll reserve questions for the second round 
then, if we have a second round.
    Mr. Weldon. The committee stands in recess for 
approximately 15 minutes.
    [Recess.]
    Mr. Weldon. The committee will come to order. The chair now 
recognizes himself for 5 minutes of questioning.
    I again thank the witnesses for your patience. Mr. Green, I 
need to become a little bit more clear on the Visa Express 
Program. Maybe Mr. Lannon can help me with this.
    As I understand it, one of the most important functions in 
a visa issuance is to make sure that the person applying for 
the visa is the person they purport to be. In Visa Express the 
interview is conducted by the travel agent in those cases that 
are approved without an interview, correct?
    Mr. Lannon. No. The interview is not provided by the travel 
agent. The travel agent is only providing the forms and 
transmitting to us.
    Mr. Weldon. Correct me if I am wrong. You don't interview 
everybody who is issued a visa through Visa Express, correct?
    Mr. Lannon. No, we don't.
    Mr. Weldon. OK. So, the process of verifying that the 
applicant was who he or she purported to be when they came to 
the travel agent, for those who are not called in for 
interviews, you are relying on the travel agent to make sure 
that proper ID was presented, correct?
    Mr. Lannon. Well, I have their passport. Their passport is 
submitted to me. So I now have their document of identity and 
citizenship that will show me what they look like. It has to 
match their visa photo. So, I can link my visa to their 
passport because I have those two photographs.
    Mr. Weldon. OK. So, you have a certain amount of checks 
that you undertake. But the person who verified that was the 
person in the documents presented ultimately was the travel 
agent excepting those whom you call in for an interview, 
correct?
    Mr. Lannon. I would say the travel agent is not verifying 
anything other than they are passing information on to us. The 
travel agent makes no positive statement that this person 
necessarily came in and compared a picture of the passport and 
their face.
    The fact is, if we had a different photograph on the 
application than we had on the passport, we would not issue the 
visa, because if we had two different pictures we would not 
issue the visa. We would say we have a problem here.
    Mr. Weldon. I believe you are answer my question in the 
affirmative. Is there any attempt made to verify that the 
person was the correct person in the ones you don't interview. 
And the answer is no; you are relying on the documents you are 
provided.
    Mr. Lannon. Yes. We are relying on those documents.
    Mr. Weldon. Mr. Green, the question I have for you is: Let 
us state a hypothetical scenario where the Secretary of 
Homeland Security feels that there are not enough personnel or 
dollars being applied to the visa functions within the Consular 
Affairs Offices.
    Under the President's proposal, the Secretary of Homeland 
Security would then have to go to the Secretary of State and 
ask for a reallocation of assets to accommodate his desires. He 
will not have control over those assets, correct?
    Mr. Green. As I understand it, sir, the Secretary of State 
would be responsible for the care and feeding of the Consular 
Corps. Under the scenario that you propose----
    Mr. Weldon. I am the Director of Homeland Security. You are 
the Secretary of State. I don't think you have enough personnel 
in the Consular Affairs Office in Bahrain. I cannot add more 
people to that office. I have to go to you and ask you to add 
more people to the office, correct?
    Mr. Green. Yes.
    Mr. Weldon. OK.
    Mr. Green. And we would do it.
    Mr. Weldon. Well, that is one of my primary concerns. You 
know, the President, in his speech, he talked about moving the 
Coast Guard and moving Customs over and have their primary 
functions to be Homeland Security.
    But as we all know, the Coast Guard does a whole bunch of 
other things other than protecting the coasts. You know, they 
do boat inspections. They do a whole variety of other things.
    Customs has traditionally been primarily a revenue 
function. Now we are going to shift their responsibility to 
keeping, I guess, equipment and bombs and other things from 
coming in.
    The same thing applies to Consular Affairs. You do other 
things, but I see this as being, your primary function as being 
homeland security, particularly in the ten or so Middle Eastern 
countries where most of these terrorists are coming out of.
    My time is expired. If you would like to response to my 
comments, I will give you a minute, but then I have to yield.
    Mr. Green. I don't disagree with you, sir. I think our 
primary responsibility is security. I think we believe that. 
The comments that are often made about consular officers 
sitting there kind of just stamping and approving visas, the 
numbers don't support that. We refuse a lot of visas. In 2001, 
out of the 7.5 million that we approved, we turned down 2.8 
million.
    Mr. Weldon. Well, if my colleagues could just indulge me 
for 1 minute, I want to make it abundantly clear that there are 
a lot of very dedicated, patriotic Americans working in the 
Consular Affairs Office. I am not here to disparage the 
dedicated Foreign Service employees that have, you know, for 
many years pursued the goal of keeping bad people out.
    It is just when you look at the whole plan and bringing all 
these different departments in, your office sticks out as the 
big ``why, why aren't you bringing this piece in?''
    My time has expired. I now yield to the gentle lady from 
Maryland for 5 minutes.
    Mrs. Morella. Thank you, Mr. Chairman. Do you need a little 
bit more time? I might give you a few seconds?
    Mr. Weldon. The gentle lady is very generous. She is 
nonetheless recognized for 5 minutes.
    Mrs. Morella. Thank you, Mr. Chairman.
    Again, I am going to refer to that Mowbray article that so 
disturbed me when I read it. He states that visa applicants are 
screened primarily for financial reasons, not security ones. 
This is written policy?
    I just wondered if you would comment on that statement, 
specifically his contention that it is written policy. Is it 
true that someone who buys a tour package will face little 
further----
    Mr. Green. Mr. Lannon.
    Mr. Lannon. I am not aware of it. Basically, in the process 
of issuing a visa or adjudicating a visa the consular officer 
has a tool they use to detect terrorist and law enforcement is 
again the Lookout System. We try to get the names and have now 
successfully got the names, more names into the system. So the 
consular officer has that kind of information.
    Normally, and part of the visa adjudication, though, is 
this whole question of is the person going to remain in the 
United States or is this person going to leave? I would say 
before September 11th a lot more time was spent on that. You 
would be looking at someone's income, someone's ability to pay 
for a trip that they said they were going to take in order to 
determine whether you would issue the visa or not.
    If someone comes in and says they make $900 a month and who 
wants to spend 3 weeks in a hotel in Disneyland, you might say, 
``Well, you don't seem to have the kind of money that it would 
take to do that'' and refuse the visa.
    If someone is very wealthy, had a lot of money, you would 
say your trip makes sense, so then I would issue the visa.
    But again on the security grounds, we were depending on the 
Lookout System to have the names of terrorists or people who 
had legal issues, criminals. We were looking to the 
intelligence community and the legal community to give us that 
information. They were the experts on that kind of activity.
    Mrs. Morella. It just seems kind of dangerous to have 
something like that financially for the primary reason. I began 
to think when I saw that visa meant the credit card. No, I'm 
kidding.
    Mr. Lannon. No, there is no requirement. You can be very 
poor and get a visa.
    Mrs. Morella. I know that, but I meant the idea that you 
are looking at the financial aspect of it. Is it true that the 
State Department and the INS data bases are not connected? Do 
consular offices not have access to INS information when 
performing background checks on applicants?
    Mr. Lannon. The State Department data bases and INS are 
connected. It is through IBIS, Interagency Border Information 
System. Not necessarily everything in our system is in their 
system and not everything in their system is in our system, for 
various reasons. We, for instance, overseas, we will use 
information, much more vague information like a name as opposed 
to a name and date and place of birth for a quasi refusal, 
where we don't necessarily have anything on someone, but we 
just want to talk to them.
    Whereas, INS, because of the port of entry, has to have 
much more exact information and has to have a grounds of 
eligibility if they are to keep somebody out. We get a lot of 
information from INS. They get a lot of information from us. 
These systems do talk to each other. We are now integrating a 
whole lot of NCIC information from the FBI, being provided to 
us as a result of the Border Security Act. We are seeing much 
more information coming out of the intelligence community as 
well.
    Mrs. Morella. I would think that the information from both 
would be available to both. They can take what they need and 
not take what they don't need.
    Mr. Lannon. That is essentially it. The protocol is set up 
between the agencies, what they need and what they don't need. 
We provide it based on that.
    Mrs. Morella. Since I may have another minute, since no one 
has called time yet, could you comment on Mr. Mowbray's 
statement that not only is the Visa Express Program still 
active, but that in the 30 days after September 11th the U.S. 
Consulate in Saudi Arabia interviewed only two of the 104 visa 
applicants?
    Mr. Lannon. Well, the Visa Express or the Travel Agency 
Referral Program is still being used in Saudi Arabia. I don't 
know where he got that number, but our information is that they 
were interviewing up to 45 percent of the people who apply. So, 
I think they are considering more people being interviewed than 
he thinks.
    Mrs. Morella. It may be still not enough. It seems to me 
they should all be interviewed, shouldn't they? Mr. Green, you 
were nodding assent?
    Mr. Green. Well, I think we would love to interview them, 
particularly in the aftermath of September 11th. I think what 
all of us acknowledge is that in the whole visa process, the 
design of it was done as a way to encourage tourism, to 
encourage economic development, to reunite families and all of 
those sorts of things.
    After September 11th, that has completely changed. I would 
love to interview everybody, but very frankly, it is a resource 
issue. It is a people issue. It is a space issue. You know, if 
we can recruit and train additional consular officers, if we 
can expand the space--you have all no doubt seen many of our 
posts overseas and the conditions under which some of these 
people work, we could certainly do that.
    Mrs. Morella. It just seems shocking that only two out of 
the 104, and I know that he will be testifying later and he 
will respond to that. But I think it is very appropriate that 
you give someone like you, on the first panel, which is so 
critically important, an opportunity to respond to something we 
are going to hear. Two out of 104 is pretty deplorable. Thank 
you.
    Mr. Weldon. The gentle lady's time has expired.
    Before I dismiss the panel, I just want to ask one 
additional question. Would it be feasible to transfer just the 
visa processing function to the Department of Homeland 
Security?
    Mr. Green. Mr. Chairman, you know, anything is possible, 
certainly. My main concern with that, let me just say that we 
have a highly trained, very skilled group of Foreign Service 
officers.
    Let me tell you just quickly as an example. In April of 
this year we had 14,000 people take the Foreign Service exam, 
14,000 in April. Of those we will offer jobs to about 450, 20 
percent, roughly 20 percent will be consular officers. So, 
there is a screening process that filters out all but the very 
best.
    I spoke at the graduation at the last A100 class. That is 
our infantry basic course. That is basic training. Out of the 
95 graduates--and this is not atypical--out of the 95 
graduates, we had 47 with Master's degrees. We had 12 with law 
degrees. We had three Ph.D.'s. That is the quality that you are 
getting in the Foreign Service and in the Consular Affairs 
Service.
    What I am afraid of is that we restrict this group, whether 
it be all of Consular Affairs or just the visa people, what you 
are going to get are not those people who want to aspire to be 
a Chief of Mission, who aspire to a senior job in the State 
Department, who aspire to be a Deputy Chief of Mission.
    What you are going to get is rent-a-cop. That is what you 
will get in the visa operation, because there are no 
opportunities or few opportunities for advancement; very 
limited mid and senior grade people. Whether you can keep folks 
happy in an environment where they can't rotate around the 
consular operation and even into the political and economic 
cone and they can't come back here to Washington to do 
different things, I don't think you can keep them happy on the 
visa line for a very long time, unless you pay them a lot of 
money.
    We will also duplicate because you have posts now where the 
consular function only occupies a portion of the day. The visa 
operation runs from 10 to 1 or 10 to 2. The rest of the time 
those people are doing other consular functions or other 
embassy functions.
    I don't know what someone dedicated to visa operations will 
do for the rest of the time.
    Mr. Weldon. I thank the gentleman for his comments.
    The chair now recognizes the chairman of the full 
committee.
    Mr. Burton. I just want to take a moment. It sounds like to 
me that if only 45 percent of the people were interviewed that 
you could find something for them to do in Saudi Arabia for the 
other 4 or 5 hours of the day, if they have other things to do. 
You know, we are talking about national security right now.
    Mr. Green. Yes, sir.
    Mr. Burton. I want very accurate information, as chairman 
of the full committee. The chairman of the subcommittee and I 
will share it. I want very accurate information on the number 
of people who were interviewed personally since this new 
process started, who were interviewed personally after the 
travel agent sent the papers over.
    If we don't get accurate information, there will be a 
problem. The reason I saw that is because when I read this 
newspaper article by Mr. Mowbray, it indicated that he was told 
one thing on the phone and then found out subsequently that 
wasn't accurate.
    So, tell whoever is giving us that information it is very 
important that it be accurate.
    Mr. Green. We will do that, sir.
    Mr. Weldon. I thank the panel for your testimony. You may 
be dismissed now. We appreciate your time and your valuable 
input.
    Our second panel will have Mr. Paul Light, vice president 
and director of governmental studies at the Brookings 
Institute. Mr. Light currently teaches at Harvard University's 
John F. Kennedy School of Government. In the past, he was the 
director of the Public Policy Program at the Pew Charitable 
Trust. Also, Mr. Light worked as a senior staffer to the U.S. 
Senate Governmental Affairs Committee.
    Then we will hear from Mr. E. Wayne Merry who is a senior 
associate at the American Foreign Policy Council. Mr. Merry has 
a distinguished career, which includes serving as director on 
european studies in transition for the Atlantic Council of the 
United States.
    Following that we will hear testimony from Mr. Nikolai 
Wenzel. Mr. Wenzel is director of academic programs at Atlas 
Economic Research Foundation. In the late 1990's, Mr. Wenzel 
served as a Foreign Service Officer with the U.S. Department of 
State. Mr. Wenzel worked as a Vice Consul at the U.S. Embassy 
in Mexico City, also serving as the Consulate's Anti-Fraud 
Chief and as Special Assistant to the Ambassador.
    Finally, we have Mr. Joel Mowbray. Mr. Mowbray is currently 
an attorney and contributing editor to the National Review.
    I want to thank all of these gentlemen for taking time out 
of your busy schedules. I again apologize for all the delays.
    Without objection, your written testimony will be included 
in the record. We ask that you try to summarize your comments 
to 5 minutes.
    Again, it is the practice of the Government Reform 
Committee to ask people to take an oath.
    [Witnesses sworn.]
    Mr. Weldon. The court reporter will annotate that they all 
answered in the affirmative. We will begin with you, Mr. Light, 
and then we will move to the left down the table. You are 
recognized for 5 minutes.

   STATEMENTS OF PAUL LIGHT, VICE PRESIDENT AND DIRECTOR OF 
   GOVERNMENTAL STUDIES, THE BROOKINGS INSTITUTION; E. WAYNE 
   MERRY, SENIOR ASSOCIATE, AMERICAN FOREIGN POLICY COUNCIL; 
 NIKOLAI WENZEL, DIRECTOR OF ACADEMIC PROGRAMS, ATLAS ECONOMIC 
   RESEARCH FOUNDATION; JOEL MOWBRAY, ATTORNEY, CONTRIBUTING 
                 EDITOR, NATIONAL REVIEW ONLINE

    Mr. Light. It is a pleasure to be here this afternoon. I 
consider this subcommittee to be the key subcommittee involved 
in this homeland security discussion on the House side.
    It is a pleasure to be before my own representative from 
Maryland. I hope you will be light on me, go easy on me.
    I have never testified before this subcommittee, actually, 
in 20 years of working on civil service issues. I don't know 
why that is, but I appreciate the invitation today.
    I say in my testimony that I don't know much about Consular 
Affairs. I know a lot about reorganization. I have been part of 
reorganizations. I have worked in both Chambers here on this 
side with Barber Conable, who was on the House Ways and Means 
Committee and on that side with John Glenn.
    I worked on the Veterans Affairs elevation in 1987 and 
1988. We took a deep look at past reorganizations. I ask two 
questions in my testimony. Is this is reorganization too broad? 
It is. It asks a great deal of the agencies that are being 
combined.
    Simultaneously, I also ask whether it is too narrow and I 
can answer that question that it is. I do not understand the 
consular affairs decision. The rule of thumb in reorganization 
is that you combine agencies with like missions at about 50 
percent of activity.
    In this case, listening to the testimony of the provide 
witnesses, I will certainly defer to the expertise at this 
table, it looked to me from outside that Consular Affairs met 
that test. There are several agencies involved in these 
reorganizations that in fact are not at the 50 percent. We know 
the Coast Guard is about 25 percent. I cannot estimate what 
percentage of time APHIS, the Animal and Plant Health 
Inspection Service, is spending on homeland security, but I 
would gainsay that it is not very much.
    So, I ask in my testimony here and am puzzled by the 
decision to leave Consular Affairs out. I certainly think that 
the committee and the subcommittee have to struggle with the 
mechanism through which the Secretary of Homeland Security 
would influence Consular Affairs.
    I am not sure it is workable. I am not sure it is legal. I 
am certainly puzzled as to whether it is doable, to have a 
Secretary of one Department able to order changes in regulation 
through the Secretary of another Department is unusual at best. 
It is not unprecedented, but it is close to being so.
    Because this is the Civil Service Subcommittee, I do talk 
in this testimony about the three significant waivers that 
exist in this legislation. We have talked a little bit today 
already about the culture of this new Department of Homeland 
Security and the culture of Consular Affairs.
    There are three significant waivers in this bill that I 
think you have to take a close look at. No. 1 is the 
reorganization authority imbedded in the proposed statute, 
which I believe is overly broad.
    Congress has not been given this kind of reorganization 
authority in 20 years. We did last see it in the Department of 
Education Bill back in 1979, but that was a very limited 
reorganization. Frankly, the reorganization authority here can 
be structured so that it is perhaps more comfortable to 
Congress and gives Congress a little bit better opportunity to 
influence what reorganizations take place within this 
department once the legislation passes.
    I also talk about the Presidential appointee system here. 
As you may know, there are 27 political appointees in this 
department, of whom 13 are not subject to Senate advise and 
consent confirmation. Of those 13, ten are Assistant 
Secretaries. It is unprecedented historically not to have 
Assistant Secretaries subject to Senate advice and consent. I 
would urge you to take a look at that.
    Obviously, the most important waiver for this subcommittee 
to examine is the waiver from Title V. I know that you are all 
struggling with that and I know you are all thinking about it. 
It is an extremely broad waiver. It is an important waiver from 
the standpoint of trying to address historic and troublesome 
problems in the Civil Service System.
    You all know that this system is slow at the hiring. It 
appears to be permissive at the promoting. It is not very good 
at the rewarding. It is darn frustrating at the firing. There 
are lots of problems at the Civil Service System, but this 
waiver is extraordinarily broad.
    I think Congress can legislate more specificity with regard 
to creating a Civil Service System, a personnel system for the 
new Department that is quite workable.
    Let me conclude by noting that the culture of the Federal 
Government prior to September 11th was oriented toward 
increasing customer satisfaction. That was the coin of the 
realm before September 11th. If you go back to the newspapers, 
in August you will find that James Ziegler, the Commissioner of 
INS was spending time hammering his agency to be more customer 
friendly, shorten those lines, get people through faster.
    Obviously, we have changed the culture and we want to 
create a culture now in Homeland Security and in State and 
across the Federal Government in which Federal employees 
understand that part of their mission, wherever they happen to 
be, is to be concerned about the state of our homeland 
security.
    I will yield to my colleagues here at the table on the 
expert opinion on consular affairs.
    I appreciate the invitation. As you know, Congressman Horn 
is stepping down later this year. About two-thirds of my 
testimony was before his subcommittee. My hope is that you will 
adopt me now before this subcommittee and that I will be back 
sometime in the future.
    Mr. Weldon. Well, considering how reasonably priced your 
testimony is, we may be able to do that.
    Mr. Light. About what it's worth.
    [The prepared statement of Mr. Light follows:]

    [GRAPHIC] [TIFF OMITTED] T6826.007
    
    [GRAPHIC] [TIFF OMITTED] T6826.008
    
    [GRAPHIC] [TIFF OMITTED] T6826.009
    
    [GRAPHIC] [TIFF OMITTED] T6826.010
    
    [GRAPHIC] [TIFF OMITTED] T6826.011
    
    Mr. Merry. Mr. Chairman, thank you very much for the 
opportunity to appear before your committee on this very 
important topic. Unfortunately, the State Department remains in 
double denial; denial that it contributed to the failure to 
prevent the terrorists entering this country and denial that it 
can and must approve how visas are issued.
    The essential problem is one of attitude. The State 
Department regards visa issuance as a service function and in 
some cases even as an entitlement program rather than law 
enforcement.
    One half of the consular function is services, American 
citizen services, and that is a very important function. Visa 
issuance is not.
    I believe the institutional weakness on this problem comes 
from the Rogers Act of 1924 which combined what was then an 
independent and quite large Consular Service with a smaller 
diplomatic service into a single unified Foreign Service.
    Since that time the consular function has always been the 
stepchild of diplomacy at the State Department. No State 
Department leadership, regardless of political party, treats 
the consular function as more than a necessary nuisance. None 
gives visa issuance policy priority, certainly not until 
September 11th.
    Very few Ambassadors accord real importance to their 
consular sections or personnel and even worse, very many Chiefs 
of Mission and other embassy staff look on visa issuance as a 
means to wind friends and to curry favor among local elites. 
Every visa officer is routinely pressured by his front office 
and by non-consular colleagues to issue visas for reasons that 
are totally unrecognized by the Immigration and Nationality 
Act.
    As you know, most visa positions overseas are filled by 
young, inexperience, probationary Foreign Service officers, 
most with no interest in consul work. Thus, one of the most 
important decisions that can be made within the walls or an 
embassy or consulate abroad, who shall enter the sovereign 
territory of the United States, is relegated to the least 
capable, least motivated and least savvy personnel.
    Now, consular work as a career attracts some of our best 
Foreign Service officers, but they are far too few and 
overworked to provide adequate supervision or mentoring to 
junior officers.
    There are at least two viable alternatives to deal with 
this problem. If the Congress chooses to assign responsibility 
for visa issuance to the new Department of Homeland Security, 
then I believe that department should also possess the 
budgetary authority and the staff worldwide.
    Otherwise, the Congress will simply replicate the current 
system in which immigration policy is in Justice, but visa 
issuance is conducted by State. In reality, these officers in 
the field inevitably will respond to the priorities which come 
down their own chain of command. If from Homeland Security, 
that would be law enforcement. If from State, it would be 
political and diplomatic.
    I have heard State's objections. I don't think they hold 
water. It is true now that staff from many departments and 
agencies already function within our diplomatic mission abroad. 
Indeed, at larger embassies, the State Department is very much 
in the minority.
    I can recall when the State Department complained 
vigorously when the Congress took away the commercial function. 
That was after years of the State Department ignoring 
congressional pleas that our diplomats take commercial 
promotion seriously. I think there is nothing sacred or 
immutable about the former functions of the State Department, 
where I used to work, or any Federal agency.
    If Congress cannot obtain satisfactory results in the 
public's business with one bureaucratic arrangement, Congress 
is within its rights to transfer the work elsewhere.
    An alternative approach, and one which I am very 
sympathetic to, would be to revisit the Rogers Act and create a 
separate Consular Service within the State Department with 
greatly increased autonomy, prestige and resources. Such a 
service must have an unambiguous legislative mandate from the 
Congress to enforce the visa laws without regard for other 
considerations and it must also have its own career personnel 
at all levels.
    In either reform, I believe Congress must do four things. 
First, it must put statutory power behind the reform. To allow 
the existing agencies to reform themselves is a prescription 
for failure. What is needed is not just a new wiring diagram, 
but new leadership and personnel.
    Second, whether you put the function in Homeland Security 
or in a new Consular Service, the visa function will need more 
personnel and more money. We have staffed consular work on the 
cheap for many years and we paid the price on September 11th. 
The number of new employees will be far fewer than the number 
of lives lost on September 11th and it will prove an immense 
bargain when skilled and motivated new visa personnel prevent 
future terrorists from arriving on American soil.
    Third, whatever reform option it chooses, Congress for 
years to come must watch the new visa operation like a hawk to 
ensure compliance.
    Finally, Congress can obtain the best results if it leads 
by example, by restricting the current tendency of Members of 
Congress to interfere in visa adjudication cases. I know 
elected officials like to serve their constituents or 
supporters by overturning a visa denial. But this pervasive 
practice corrupts an already weak enforcement regime and 
encourages the notion which is very widespread in the world 
today that a visa into the United States is a commodity to be 
obtained rather than a legal standard to be met.
    Mr. Chairman, I believe that citizens of the United States 
have a right to expect our highest public institution, the 
Congress now will assure that a visa is no longer an invitation 
for either international organized crime or terrorism, but 
becomes an instrument of American sovereign authority at the 
first line of national defense.
    Mr. Weldon. I thank you.
    [The prepared statement of Mr. Merry follows:]

    [GRAPHIC] [TIFF OMITTED] T6826.012
    
    [GRAPHIC] [TIFF OMITTED] T6826.013
    
    [GRAPHIC] [TIFF OMITTED] T6826.014
    
    [GRAPHIC] [TIFF OMITTED] T6826.015
    
    Mr. Weldon. Mr. Wenzel, you are recognized for 5 minutes.
    Mr. Wenzel. Good afternoon. Thank you, Mr. Chairman, 
Representative Davis, Chairman Burton, and members of the 
subcommittee, for this opportunity to share some comments on 
the importance for the sake of national security of 
transferring all immigration and visa functions away from the 
State Department.
    The State Department's view of consular affairs has two 
major functions. The first, American citizen services, which is 
the traditional function of the consular Corps and on which I 
would say the State Department is doing a good job, is not the 
topic of this testimony.
    The second is immigration law and specifically the 
adjudication of non-immigrant and immigrant visas. Under U.S. 
immigration law, applicants for most non-immigrant visas carry 
the burden of proof for showing that they will not overstate a 
visa illegally. Yet, an estimated 50 percent, one half, of all 
the illegal aliens currently in the United States entered the 
country on non-immigrant visas issued by the State Department.
    Similarly, studies indicate that each successive wave of 
immigrants is poorer in spite of the State Department's legal 
obligation to deny a visa if the applicant is apt to become a 
public charge.
    These figures are too strong to indicate mere coincidence. 
Rather, they evince a pattern of selective application of the 
law. These statistics are not surprising. Entrusting the 
administration of laws to officials with diplomatic 
responsibilities is a recipe for trouble.
    Diplomacy entails dialog, cooperation, compromise and 
public relations. Conscientious administration of the law, on 
the other hand, entails adherence to the rule of law and 
intolerance of illegal behavior, even if that is unpopular or 
might conflict with other diplomatic priorities.
    We thus see an emphasis within the State Department on 
numbers and issuances to avoid the embarrassment of long lines 
outside of consulates or too many refusals. Consular offices 
are often judged on speed and politeness rather than proper 
administration of the law.
    This disconnect is epitomized in a recent article on the 
Bureau of Consular Affairs so-called Best Practices, ``The best 
practices initiatives undertaken by the Bureau of Consular 
Affairs are improving consular operations on a daily basis. 
Through fundamental management changes, consular managers can 
now meet their customers,'' that is how these applicants are 
referred to ``the customer's expectations and make the most of 
available resources while projecting a positive image of the 
Department worldwide.''
    The article then lists some examples which I which will not 
cite here for lack of time. ``These are but a few of the best 
practices that consular managers have initiated to achieve the 
balance between better service to the public and an improved 
work environment.''
    No mention of national security, no mention of 
conscientious administration of the law. The State Department 
and the Bureau of Consular Affairs appear to have chosen public 
diplomacy to the detriment of proper administration of the law.
    Such was the situation before the terrorist attacks of 
September 11th. All 19 of whose perpetrators entered the United 
States on non-immigrant visas issued by the State Department. I 
have not seen any significant or serious changes to the 
department's modus operandi since September 11th, or any 
attempt to lower the massive numbers of interviews and more 
importantly, issuances and thus reduce the chance of erroneous 
issuance to a known terrorist.
    Instead, I have seen a number of comments indicating that 
the State Department's priorities have not changed. Those are 
detailed in my written testimony.
    Now, if selective enforcement of the law allows large 
numbers of aliens to enter the United States to work 
peacefully, that is one thing. It is a problem of rule of law, 
but one with which we could ultimately live.
    However, if misguided priorities and selective 
administration of the law were ever to allow terrorists to 
enter the United States to harm us, that would be very 
different, and a much more serious matter.
    One may agree or disagree with current U.S. immigration 
law. I should point out in passing that I myself am the son of 
an immigrant. My mother was naturalized a U.S. citizen just 4 
years ago. I personally favor exploring the practicality of 
liberalizing access for aliens who seek entry for peaceful 
purposes. But that is not the point here. We are trying to 
protect the country from terrorists.
    The Bureau of Consular Affairs should continue to provide 
services to American citizens. For the sake of national 
security, however, we should remove all visas functions from 
the State Department. This includes complete and direct policy 
and operational control of all officials involved in 
immigration and visa-issuing functions and ideally, new staff, 
rather than current State Department employees as the corporate 
culture in the State Department is too entrenched to be changed 
by a mere shift in bureaucratic supervision.
    The proposed Department of Homeland Security appears to be 
the best candidate for these functions. They would not fact the 
same conflicting diplomacy priorities as the State Department 
and it would present the advantages of a centralized 
information repository.
    Thank you.
    [The prepared statement of Mr. Wenzel follows:]

    [GRAPHIC] [TIFF OMITTED] T6826.016
    
    [GRAPHIC] [TIFF OMITTED] T6826.017
    
    [GRAPHIC] [TIFF OMITTED] T6826.018
    
    [GRAPHIC] [TIFF OMITTED] T6826.019
    
    [GRAPHIC] [TIFF OMITTED] T6826.020
    
    [GRAPHIC] [TIFF OMITTED] T6826.021
    
    [GRAPHIC] [TIFF OMITTED] T6826.022
    
    Mr. Weldon. Mr. Mowbray, you are recognized for 5 minutes.
    Mr. Mowbray. Thank you, Mr. Chairman, Mr. Ranking Member, 
Mr. Committee Chairman and Congresswoman Morella. Thank you for 
inviting me here to testify today.
    I first became aware of the disturbing culture and reckless 
practices of Consular Affairs when I was contacted by a senior 
employee at the agency. After reviewing dozens of internal 
cables and other related documents, I decided to investigate 
further.
    The Visa Express Program, which is how three of the 
September 11th hijackers entered this country, even though it 
had only been in place for 3 months before September 11th, is 
what drew me in initially. Unfortunately, that was just one 
chapter of a very scary book.
    Visa Express is a symptom of deeply rooted problems in the 
Bureau, which is charged with the unique and conflicting pair 
of goals: to provide public diplomacy on the front lines and to 
screen out potential terrorists before they reach our shores.
    Over the past decade, Consular Affairs has done an 
excellent job of the former, but has done a very poor job 
because it has come at the expense of the later and our border 
security.
    Needless to say, I was alarmed by what I found. After 
talking to many current and former consular officers, a clear 
pattern emerged. Consular Affairs, under the direction of 
Assistant Secretary of State for Consular Affairs, Mary Ryan, 
over the past decade has pressured agents in the field to not 
only be courteous and polite to all visa applicants, but also 
to issue as many visas as quickly as possible.
    The policies created by Ms. Ryan have also contributed to 
the situation that made it possible for all 19 of the September 
11th hijackers to obtain legal visas. In the vast majority of 
countries around the world, these applicants are only 
interviewed if they fill out a paper first, a marked departure 
from just a decade ago when almost everyone was interviewed at 
least once before obtaining a visa to enter the United States.
    There are only two basic reasons someone's application 
fails. Either the person is poor, or the person's name appears 
on a watch list. As intelligence reports have shown, Al-Qaeda 
sleepers come primarily from upper middle-income backgrounds, 
have large cash accounts set up for them and have no criminal 
record.
    Thus, current policies at Consular Affairs severely hamper 
our efforts to keep Al-Qaeda operatives from obtaining legal 
visas.
    Ms. Ryan has assiduously and systematically worked to scrap 
the interview requirement in consulates worldwide--meaning more 
and more people arrive in the United States without ever coming 
into contact with a U.S. citizen until they step off the plane 
and on to American soil.
    Ms. Ryan, in her own words, thinks that this is ``a very 
worthy goal.''
    Even when Consulates do focus on border security, though, 
consular officers gear their screening so that they are more 
likely to keep out poor people who want to build a new life in 
America than terrorists who want to destroy our way of life.
    Consular Affairs written policy is that ``if the travel 
agency is reasonably satisfied that the traveler has the means 
to buy a tour package, there will be little further evaluation 
of the applicant's qualifications.
    In other words, anyone able to flash a wad of cash, 
something any Al-Qaeda operative could do, is deemed eligible 
for a visa. Consular officers in Saudi Arabia have stepped up 
the number of interviews in recent months, but only for men 
under the age of 45; this in a day and age when we have female 
suicide bombers in the Middle East.
    In recent days, consular officials, by way of defending 
Visa Express, have been fond of noting that 12 of the 15 Saudi 
Arabian September 11th terrorists were interviewed before being 
issued a visa. That fact, however, shows not that interviews 
don't work, but that interviews designed by Consular Affairs 
don't work.
    At the root of the problem is the woeful training consular 
officers receive, particularly for interviews. Consular 
officers receive a grand total of 5 hours of training for 
interviews, before being expected to defend our borders at the 
front line and to screen out potential terrorists.
    Even after September 11th, consular officers received no 
training in law enforcement interviewing techniques and 
methods. That goes to the heart of the problem. Consular 
Affairs is not a law enforcement agency, but it needs to be. It 
is an intransigent that has stubbornly refused to change, even 
after the horrific actions of 19 terrorists, all of whom 
obtained legal visas.
    The quote from a senior Consular Affairs official that 
haunts me still is that Consular Affairs executives act as if 
the World Trade Center Towers were still standing. To better 
understand their thinking, look how Consular Affairs responded 
to my in-depth report on Visa Express.
    Consular Affairs did just two things to the program. First, 
it dropped the name, Visa Express, and second, it changed the 
Web site description of the program. That Consular Affairs CRS 
those two non-actions the appropriate response speaks volumes 
about the frighteningly insular and backward nature of the 
agency.
    Consular Affairs slavish devotion to diplomacy is leaving 
open a gaping hole in our border security. It is still business 
as usual for the program formerly known as Visa Express.
    The quick call yesterday from an associate of mine in 
Arabic to one of the participating travel agencies in Riyadh 
confirms that the program is still going strong. As the agent 
explained to him, ``Don't worry. Only the Web site changed. 
It's still easy to get a visa.''
    Change will not happen from within Consular Affairs either. 
When the State Department's Inspector General audits Consular 
Affairs, the inspection team is headed up by a current or 
former Consular Affairs employee. That's right--Consular 
Affairs audits itself.
    If it wasn't clear before September 11th, it must be now. 
Visa screening is the front line of our border security. 
Consular Affairs is bloated, bureaucratic, trapped in the death 
grip of inertia and it will not change, not even in the wake of 
the worst terrorist action in our history.
    The only solution is making Consular Affairs part of the 
new Department of Homeland Security.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mowbray and the two New York 
Post articles from June 18 and June 26, 2002, written by Mr. 
Mowbray, follow:]

[GRAPHIC] [TIFF OMITTED] T6826.023

[GRAPHIC] [TIFF OMITTED] T6826.024

[GRAPHIC] [TIFF OMITTED] T6826.025

    Mr. Weldon. I thank all the witnesses for you very, very 
valuable testimony.
    Mr. Chairman, I was going to go to you first.
    Mr. Burton. I have some questions, but I have to leave. I 
think they have pretty much covered the ground that I am 
interested in. I look forward to working with you, Mr. 
Chairman, and your subcommittee in drafting some possible 
amendments to the bill.
    Mr. Weldon. The Chair now recognizes himself for 5 minutes.
    Mr. Light, you are an expert on reorganization, is that 
correct?
    Mr. Light. I have an awful lot of experience studying them 
and I participated in one or two.
    Mr. Weldon. You know, the American people hold the 
President responsible for running the Government and all its 
agencies. The President, under this new reorganization, is 
going to be turning to his Secretary of Homeland Security to 
protect our homeland, protect the American people from attacks 
from terrorists.
    Understanding that all 19 of these September 11th 
terrorists came into this country with what has been terms, 
``an appropriately issued visa,'' how can you have the 
appropriate accountability if we are going to leave this 
function within the State Department?
    Mr. Light. Well, I mean, I think that is a fairly simple 
question to answer. There are more than 100 agencies involved 
in homeland security. We have to make decisions about which 
ones to pull into the reorganization and which not.
    I would recommend to the chairman that you use a simple 
rule of thumb. You take a look at the mission of the agencies 
involved and you evaluate whether that mission is central or 
not central to the new mission of homeland security.
    Not being an expert on consular affairs, just looking in 
from the outside, it would be on my ``A list'' for further 
review. It has a mission that appears to have significant 
impact on the core focus of the new department. We would want 
to take a close look at it. We would want to say why is it 
being left where it is. Are there good and compelling reasons?
    Mr. Weldon. You know, the corollary to this, if I could 
just interrupt you for a second, is the question I asked the 
first panel which is, what if the Secretary of Homeland 
Security, under the President's proposal, does not feel the 
Secretary of State is allocating sufficient resources to a 
particular mission, to a particular Consular Affairs office, 
how would he then get the Secretary of State to allocate the 
resources appropriately?
    Mr. Light. Well, you are going to have to fix that 
provision of the bill. You all are going to have to say exactly 
what authority the Secretary of Homeland Security has in this 
relationship with the Secretary of State.
    I have not seen anything like this in a while. I would have 
to dig back through my files to find something as sort of 
unwieldy. But is it possible for the Secretary of Homeland 
Security to order the Secretary of State to act? I don't think 
so. I don't think constitutionally or in terms of the legal 
structure of these two departments that is going to be 
possible.
    You are going to have to clarify that. It makes little 
sense to me from a reorganization standpoint.
    Mr. Weldon. Do any of the other witnesses wish to comment 
upon his comments?
    I have in front of me a cable. I think it is an 
unclassified State Department cable. They talk about struggling 
with how to deal with all these visa applicants in an 
environment described as under constant pressure to find 
management solutions to ever-present circumstances of 
decreasing resources.
    Mr. Merry, you are a former Consular Affairs officer, is 
that right?
    Mr. Merry. I was in fact a political affairs officer who, 
on one occasion, was given a consular assignment. As I point 
out in my prepared testimony, I was made the head of a visa 
section with no previous consular experience and almost no 
training, the classic example of how it should not be done.
    Mr. Weldon. Mr. Mowbray, do you have any information? You 
have been studying this issue for several weeks now. Do you 
have any information that these consular offices have not been 
getting the resources they need to process these visas in a 
secure fashion to protect us from terrorists?
    Mr. Mowbray. I have actually had dozens of consular 
officers, many of them current, coming out of the woodwork to 
contact me about this.
    A lot of them commented that it seems to be very selective. 
I would actually encourage you to look at the GAO report that 
was just prepared for Congressman Snyder about understaffing at 
very important posts, vital posts as they describe them; Saudi 
Arabia being one of them.
    I have here in front of me which I provided for the 
committee the document showing the fee schedule for various 
visas. There are also MRV fees, machine-readable visa fees, 
that Consular Affairs now has the authority over. In a sense, 
they set their own budget by being able, like a business, to 
raise prices and make extra money.
    Looking at this, it indicates, just this fee schedule that 
I have, that they aren't doing everything they can to raise the 
funds they need.
    One person, and I can't say that this is true, but I can 
tell you what one Consular Officer told me, which is that it 
seemed as if Mary Ryan, by choice, maybe not intentional 
choice, but certainly as the logical consequence of her 
actions, to keep certain vital posts understaffed and 
overworked; that it didn't matter in a sense because if they 
were moving to more third-party screening and things of that 
nature, then they would be able to get around that.
    One thing I would also like to do is add on third-party 
screening. It seems as if they are doing this again at the 
expense of border security and then covering up about it. I 
believe the Department of State provided the Consular packages 
which has information there about visa refusal rates.
    If you look there at the Consular package from Riyadh, 
which is what I had obtained over a month ago, the Consular 
Affairs, after the news broke that 15 of 19 September 11th 
hijackers were Saudis, the Consular Affairs told the public 
that the refusal rate for Saudis was 3 percent.
    Not only is that a bald-faced lie, but 23 percent of the 
country overall is refused. In fact, nearly 20 percent of Saudi 
nationals at the Riyadh post, which handles about two-thirds of 
the visas or more, were actually refused. So, I don't know how 
to square 3 percent versus 20 percent. It seems as if Consular 
Affairs was attempting to cover its tracks to justify a program 
where they violated their own internal protocols which said 
that you can't set up third-party screening in countries that 
have visa refusal rates of 6 percent or higher.
    Mr. Weldon. My time has expired.
    The Chair now recognizes the ranking member for 5 minutes.
    Mr. Ford. Thank you very much, Mr. Chairman. It sees to me 
that we have talked a great deal about the culture of the State 
Department, the culture of Consular Affairs within the State 
Department, to the extent, unless I am hearing something 
different than what is being projected, that there are some 
people who seem to think that it is incompatible to think that 
the activities of processing and granting visas, if they are 
handled within the State Department with some of its focus 
being on diplomacy or with more of its focus perhaps being on 
diplomacy or with more of its focus perhaps on homeland 
security being more geared toward police action of law 
enforcement, my question becomes: Shouldn't there be more 
emphasis based upon law enforcement in the granting of visas 
than what we have experienced or seem to be experiencing in the 
past? Either one or all.
    Mr. Merry. Congressman, I think the law, the Immigration 
Nationality Act, is actually quite clear to what the priorities 
are supposed to be. What the law says and what the culture of 
the institution in the carrying out of the law are not 
necessarily the same thing.
    As you have heard from a number of the other witnesses here 
today, there has been a pervasive tendency to try to make visa 
issuance into a service function for customers, whereas the law 
is very clear that the visa function is a legal hurdle which 
any alien must meet before entry into this country.
    I think a large part of the problem is that since most visa 
employment is given to first term probationary, very green new 
officers who are inevitably influenced by the priorities that 
come down from on high within their embassies, that it is very 
unlikely that such people would have a mentality of law 
enforcement. Such a mentality has to be either trained or 
inculcated.
    In any other law enforcement organization that I have ever 
had any experience of, new employees are mentored. The young 
police officer is paired with an older police officer so he can 
gain some of the experience, street smarts, of law enforcement.
    Unfortunately, our experienced consular people who have the 
talent for being suspicious of potentially fraudulent or 
dangerous applicants don't have the time and they don't exist 
in sufficient numbers to do that kind of mentoring to our 
junior visa officers, most of whom are only spending a very 
short period in the function in any case. This is a very 
dangerous way to go about it.
    For the price of a few hundred more full-time visa 
officers, that could in large measure be corrected.
    I certainly do not agree with Mr. Green's view that this 
would be Robo-Cop. We have in this country a great many 
institutions that are in the business of law enforcement. I 
don't feel that they should be disparaged. I think we saw on 
September 11th that a lot of institutions where people are not 
very well paid and don't get a lot of prestige are nonetheless 
capable of responding to a crisis magnificently.
    The notion that somehow the processing of this decision as 
to who should be allowed to come into this country is one that 
won't attract people who will be willing to do a good job I 
just don't agree with, particularly if the Congress gives those 
people, whether they are in a new autonomous Consular Service 
in the State Department or whether they are in Homeland 
Security, if they gave them the legislative mandate and the 
resources they need.
    Mr. Wenzel. Yes, Congressman, I would like to add, I think 
visa issuances should be seen as first a law enforcement and 
national security function, with courtesy and public diplomacy 
as important, but ultimately secondary considerations and not 
the other way around as it has been thus far.
    I would also add I think it would be helpful if all visa 
and immigration officers were sworn and appropriately trained 
law enforcement officers with national security and law 
enforcement as their primary function, not as a conflicting 
function with other priorities that are set from above.
    Mr. Davis. So, we are really saying that the event of 
September 11th and its aftermath changes in some ways our 
perception of the point of this function and that we need to 
look at it differently than perhaps we did before.
    Mr. Light. Let me just, you know, by way of historical 
context, we have been working for the last 12 years in the 
Federal Government, first with the first Bush administration 
and then with the Clinton administration to improve customer 
satisfaction with government all across our agencies. We have 
made a lot of progress.
    But when you switch to a law enforcement approach, you are 
going to have to counter-weigh with more of a customer 
approach. That is why the Transportation Security 
Administration right now is bringing in consultants from Disney 
and Marriott to help train baggage and passenger screeners to 
treat the vast majority of passenger who come through their 
screening machines with courtesy and respect and speed. It is a 
balancing test.
    Right now, post-September 11th, we have to put more 
pressure on the law enforcement function. I think the 
appropriate place for that would be in what is going to be a 
law enforcement agency, which is Homeland Security.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Mowbray. I was going to respond.
    Mr. Weldon. Go ahead. You can respond.
    Mr. Mowbray. First of all, I am from Homewood, Illinois, 
right near your district, Congressman Davis.
    One of the things that I have noticed again and again in 
comments from people with whom I spoke before writing the story 
and after, is that very little has changed at most consulates 
and embassies from a culture standpoint.
    I also want to say just from the executive standpoint that 
very little has changed in terms of training. Here is the full 
chapter that I have, and again, I have provided it for the 
committee, showing the entire chapter on interview training for 
consular officials.
    However, this part here, three pages, is all that is spent 
on actually the interview itself. The rest of it is explaining 
what each question on the forms mean. On that two-page form you 
get some very bizarre answers sometimes or non-answers, and yet 
it clears the system.
    People will write down clearly bogus reasons why they are 
going. A Consular Officer, rather than wanting to spend the 
time necessary to process a refusal and then have someone come 
in for an interview, will simply approve. Some Consular 
Officers will write ``barely passing'' on the OF156 forms, and 
yet these people are brought in.
    Superiors oftentimes will overturn the refusals of junior 
Consular Officers, some of whom are seen as too aggressive to 
refuse people. They are told that there is no problem that 
issuing visas can't fix.
    The person at Saudi Arabia, Thomas Furey, who oversaw the 
implementation of Visa Express, he was there from the summer of 
2000 to the fall of 2001, his catch phrase for which he is 
known, apparently, throughout Consular Affairs is ``People 
gotta have their visas.''
    This is a mindset that has not changed, either in culture 
or in training. They don't train people with a single, even a 
degree, of law enforcement techniques or methods which are 
vital for keeping people out.
    I talked to a number of security experts as well as far as 
the value of an interview. Many say there is, even just to talk 
to them for a couple of minutes.
    Mr. Weldon. The gentleman's time has expired.
    The gentle lady from Maryland is recognized for 5 minutes.
    Mrs. Morella. Thank you very much and I thank the panel, 
too.
    Mr. Mowbray, when I mentioned to Mr. Green the concept that 
the Visa Express Program was still active in the 30 days after 
September 11th, the U.S. Consulate in Jiddah interviewed only 
two of the 104 applicants, how did you get those figures?
    Mr. Mowbray. That was from a State Department cable. The 
Wall Street Journal reported that as well.
    Mrs. Morella. What is this Visa Viper? Can you tell us 
something about that?
    Mr. Mowbray. Well, Visas Viper is a protocol by which 
consulates and embassies, they essentially gather around and 
they say, ``Who are some possible terrorists or bad guys in a 
particular region?''
    It is a way of screening people out who are not on the 
watch list, but combined with local intelligence information 
and sometimes by being in an area for a couple of years you 
know who the drug dealers are.
    So, Visa Viper is an attempt to create a secondary watch 
list to keep out people whose names aren't on the watch list 
for criminal records or for all other purposes. But the 
implementation and actual practicing of Visa Viper has been 
spotty at best, from what I understand.
    Several people with whom I have spoken who have been 
supervisors at consulates and embassies have said that they 
place very little emphasis in many consulates on Visa Viper. 
That is true to this day. There was a cable that just came out 
this week that talked about how you need to implement it. It 
was stern language, but that was it. There was no punishment 
associated with not implementing this program to screen out 
terrorists.
    Mrs. Morella. Well, that gets into--I guess I could ask 
both Mr. Wenzel and Mr. Merry, in your opinion what should be 
done to reform the visa issuing process in order to reflect the 
need for homeland security to be a priority at our embassies 
overseas. Do you have any suggestions?
    Mr. Wenzel. Well, my first comment would be simply remove 
it from the State Department and hand it over to an agency that 
doesn't have these conflicting priorities. I have met a lot of 
good people within the State Department Consular Affairs. I 
don't think they are consciously out to violate the law, but 
they are facing an incentive structure that is not conducive to 
proper issuance of visas because there are other priorities.
    So I think it is important to remove all those functions 
completely from the State Department and hand them over to 
another agency that can focus on law enforcement and national 
security even if that comes down to some amount of loss on the 
side of public diplomacy.
    Mrs. Morella. Mr. Merry.
    Mr. Merry. Yes. I think, as I said in my statement, that 
there are potentially alternative ways of doing it, keeping in 
mind that this question of removing visa issuance from the 
State Department did not just come up after September 11th. 
There has been talk about using only Immigration and 
Naturalization personnel at embassies and consulates abroad. 
That has been discussed for many years.
    There are some consulates where INS does do much of the 
work, precisely because INS had so much trouble in a number of 
cases.
    I continue to believe that the restoration of an 
independent Consular Service within the State Department would 
be a viable way of doing the job. If the Congress is concerned 
that the new Department of Homeland Security is going to be so 
large, so complex and be such a management challenge that this 
vital function might not get the kind of priority, the kind of 
attention, and the kind of oversight that it would require in 
this vast new government agency which is going to be created, 
if that is a concern and you would perhaps wish to look for an 
alternative, I think an independent Consular Service could 
work.
    However, since the question of moving the visa function out 
of State long predates September 11th, I think if the rationale 
was valid a year ago and 5 years ago and 10 years ago, why 
should it be any less valid after September 11th?
    The only difference would be that rather than moving the 
function to a subsidiary unit of the Department of Justice, we 
are talking about moving it to the new Department of Homeland 
Security.
    I certainly do agree with the suggestion that has been made 
here that visa officers should be not only trained, but sworn 
law enforcement personnel. I think being a sworn law 
enforcement officer would do a great deal to affect an 
individual's mentality when they approach the job.
    Mrs. Morella [assuming Chair]. Maybe then more criteria 
could be established in order to judge the performance?
    Mr. Merry. I think establishing performance criteria and 
exercising continuing oversight is going to be an obligation of 
the Congress, of this committee, and of all of you who are 
involved in writing the new law.
    You cannot trust the bureaucracies to reform themselves. 
You are going to have to keep an eye on them.
    Mrs. Morella. We have that GPRA law, the Government 
Performance and Results Act.
    I also sense from what I have heard from this panel, too, 
we don't offer enough incentives or initiatives too, for them 
to know this is an important job.
    Little did you know, Mr. Light, when you became the 
Executive Director of the new Voelcker Commission, that you 
would have this vast responsibility and challenge ahead of you 
with the Homeland Security? If I could just ask that question, 
does that cast a whole different flavor or perspective to the 
initiative of recruiting Federal employees?
    Mr. Light. Sure, it absolutely does. I mean, we are hearing 
sort of a subtext here about how we recruit and train and lead 
human capital in government. Now, the story here today is about 
Consular Affairs. Tomorrow it could be about the FBI. The day 
after that, it could be about EPA. The cast and the characters 
change, but the story remains the same.
    I think you do have an opportunity in this bill to deal 
with some of the human capital barriers that we have in the 
Federal Government.
    As I said in my testimony, I do not think you can adopt a 
waiver as broad as the one imagined in the President's 
proposal, but certainly this subcommittee has the talent to 
legislate some waivers and carefully circumscribed waivers that 
will allow the new department to do an effective job in 
recruiting, paying and incentivizing high performance. I hope 
you will take that on.
    Mrs. Morella. My time has expired. But I think the other 
members of the subcommittee would agree with me: We are ready 
to adopt you.
    Mr. Light. Thank you very much. I am looking for a new 
home.
    Mrs. Morella. I am pleased to recognize Congresswoman 
Norton.
    Ms. Norton. Thank you, Mrs. Morella. I regret that markups 
and hearings kept me from hearing all of the testimony. I am 
fascinated by what I heard thus far.
    I, like many people, Americans, am extremely concerned 
about casual visa issuance, particularly from what we know 
about the perpetrators of September 11th.
    As I listened to the discussion, I regard it as kind of 
questionable as Members try to fathom what functions or parts 
of functions should be transferred. In one way or the other, 
these same questions are going to be raised about every agency 
and each and every function.
    The problem I see with raising it is that unless there are 
standards that we can somehow agree upon for deciding what gets 
moved or what part of what gets moved, this is going to become 
a very arbitrary process. It is going to be based on what 
committee is hearing it and the power on that committee or the 
preferences, whether strongly expressed or not in that 
committee.
    It is going to be based on the power or the political or 
the prestige concern of the agency or of committees here 
without some standard, preferably one that cuts across or would 
apply easily enough to the agencies involved.
    I see a real problem developing. I think this was a very 
good test case because it involves one of special concern. That 
is what we know now.
    I don't have any particular questions for you. I did want 
to raise for the chairman that in law school we would call this 
a wonder hypothetical because it raises the kinds of issues 
where you then say to the students, ``OK, where should it be 
moved?''
    Then you get the kind of answers we get back. You know, the 
professor marks you based on which set of answers she likes, 
but she is most likely to like the set of answers that look 
like they are based on some rational standard.
    I think the Chair has opened up the larger question for all 
of us considering these issues. What is a rational standard for 
judging what should be moved or what part of what should be 
moved and can we get general agreement on such a standard.
    I thank you.
    Mr. Weldon [resuming Chair]. Well, I thank the gentlelady 
and let me just assure her that I would like to use, and I 
believe the ranking member agrees with me strongly on this, is 
what is the best interest for the safety and security of the 
American people.
    I understand what you are alluding to, that if you draw the 
net too wide we could get bogged down in minutia. But I think 
clearly in light of the fact that the majority, maybe all of 
it, I don't remember the exact figure of the terrorists on 
September 11th had gone through the process at Consular 
Affairs. The Congress has the responsibility to look very, very 
closely at Consular Affairs.
    I want to thank all of the witnesses for their very, very 
valuable testimony. I ask unanimous consent to include in the 
record the e-mail from Thomas Furey to Mary Ryan referred to by 
the chairman of the full committee. Would objection, it will be 
included in the record.
    Without objection the Chair will keep the hearing record 
open for 7 days so that Members may submit written questions 
for the record to our witnesses.
    This panel is now excused. The committee greatly thanks 
them for their time and their attention to this.
    The hearing is now adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
